         DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                              Washington, D.C. 20201




November 4, 2009

TO:            Yvette Sanchez Fuentes
               Director, Office of Head Start
               Administration for Children and Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review at the City of Chicago, Department of Family
               and Support Services, for the Period December 1, 2005, Through July 31, 2009
               (A-05-09-00088)


The attached final report provides the results of our limited scope review at the City of Chicago,
Department of Family and Support Services (City), for the period December 1, 2005, through
July 31, 2009. This review was requested by the U.S. Department of Health and Human
Services, Administration for Children and Families (ACF).

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social, and
other services to enrolled children and families.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to improve
staff compensation and training, upgrade Head Start centers and classrooms, increase hours of
operation, and enhance transportation services. An additional $356 million was allocated to
award all Head Start grantees a nearly five percent cost-of-living increase and bolster training
and technical assistance activities.

The objective of our limited scope review was to assess whether the City has the capability to
manage and account for Federal funds in accordance with Federal regulations.

Generally, the City has the capability to manage and account for Federal funds in accordance
with Federal regulations. City administrative staff working on multiple activities, including the
Head Start program, had their salaries and wages supported by semi-annual certifications.
Page 2 – Yvette Sanchez Fuentes

Although the City follows 2 CFR part 225, Appendix B, § 8.h.(3) and utilizes semi-annual
certifications, we would encourage the City to certify administrative staff’s time charged to
multiple funding sources on a monthly basis, in accordance with 2 CFR part 225, Appendix B, §
8.h.(4) and (5).

In its comments on our draft report, the City stated that a review and update of its policies and
procedures concerning personnel costs charged to Federal awards for administrative staff was in
order, but it did not agree with the reported finding that these costs were not in compliance with
Federal requirements. After reviewing the City’s comments, we acknowledge that the City
follows 2 CFR part 225, Appendix B, § 8.h.(3) and utilizes certifications every six months when
employees work solely on a single cost objective. We revised our report to acknowledge the
City’s use of a six month certification process.

In determining whether the City should be awarded additional Head Start and Recovery Act
grant funding, we recommend that ACF consider the information presented in this report in
assessing the City’s financial condition.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to
contact me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to
report number A-05-09-00088 in all correspondence.


Attachment
 Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL



RESULTS OF LIMITED SCOPE REVIEW
                AT THE
       CITY OF CHICAGO,
  DEPARTMENT OF FAMILY AND
      SUPPORT SERVICES,
        FOR THE PERIOD
  DECEMBER 1, 2005, THROUGH
         JULY 31, 2009


                        Daniel R. Levinson
                         Inspector General

                         November 2009
                         A-05-09-00088
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices

    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY


BACKGROUND

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social, and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services, the Administration for Children and Families (ACF) administers the Head Start
program. The Head Start program provides grants to local public and private non-profit and for-
profit agencies to provide comprehensive child development services to economically
disadvantaged children and families.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to improve
staff compensation and training, upgrade Head Start centers and classrooms, increase hours of
operation, and enhance transportation services. An additional $356 million was allocated to
award all Head Start grantees a nearly five percent cost-of-living increase and bolster training
and technical assistance activities.

The City of Chicago (City) administers the Head Start program through the Chicago Department
of Children and Youth Services, which was renamed the Department of Family and Support
Services as of January 1, 2009. The City oversees Head Start operations by utilizing 64 delegate
agencies that are contracted to provide services throughout Chicago, Illinois. For fiscal year
(FY) 2009 (December 1, 2008, through November 30, 2009), the City reported 16,518 children
enrolled in the Head Start program.

The City Head Start program is funded primarily through the Federal grant. During FY 2009,
ACF awarded grant funds to the City totaling $114,756,192 for the Head Start and Early Head
Start programs. The City requested Recovery Act grant funding for FYs 2009 and 2010 totaling
$3,872,262 for Head Start program expansion and $12,138,168 for Head Start and Early Head
Start cost-of-living increases and quality improvement.

OBJECTIVE

The objective of our limited scope review was to assess whether the City has the capability to
manage and account for Federal funds in accordance with Federal regulations.

SUMMARY OF FINDINGS

Generally, the City has the capability to manage and account for Federal funds in accordance
with Federal regulations. City administrative staff working on multiple activities, including the
Head Start program, had their salaries and wages supported by semi-annual certifications.
Although the City follows 2 CFR part 225, Appendix B, § 8.h.(3) and utilizes semi-annual
certifications, we would encourage the City to certify administrative staff’s time charged to


                                                 i
multiple funding sources on a monthly basis, in accordance with 2 CFR part 225,
Appendix B, § 8.h.(4) and (5).

RECOMMENDATIONS

In determining whether the City should be awarded additional Head Start and Recovery Act
grant funding, we recommend that ACF consider the information presented in this report in
assessing the City’s financial condition.

CITY OF CHICAGO COMMENTS

In written comments on our draft report, the City stated that a review and update of its policies
and procedures concerning personnel costs charged to Federal awards for administrative staff
was in order, but it did not agree with the finding that these costs were not in compliance with
Federal requirements. The City’s comments are included in their entirety as the Appendix.

OIG RESPONSE

After reviewing the City’s comments, we acknowledge that the City follows 2 CFR part 225,
Appendix B, § 8.h.(3) and utilizes certifications every six months when employees work solely
on a single cost objective. Although we would encourage the City to certify administrative
staff’s time on a monthly basis, in accordance with 2 CFR part 225, Appendix B, § 8.h.(4)
and (5), we have revised our report to acknowledge the City’s use of a six month certification
process.




                                                 ii
                                                   TABLE OF CONTENTS

                                                                                                                             Page

INTRODUCTION...........................................................................................................1

     BACKGROUND ........................................................................................................1
       Head Start Program...............................................................................................1
       The City of Chicago..............................................................................................1
       Requirements for Federal Grantees ......................................................................2

     OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................2
       Objective ...............................................................................................................2
       Scope.....................................................................................................................2
       Methodology .........................................................................................................2

FINDING AND RECOMMENDATION ......................................................................3

     FEDERAL CRITERIA ...............................................................................................3

     PERSONNEL ACTIVITY REPORTS .......................................................................4

     RECOMMENDATION ..............................................................................................4

     CITY OF CHICAGO COMMENTS ..........................................................................4

     OIG RESPONSE ........................................................................................................4

APPENDIX

     CITY OF CHICAGO COMMENTS




                                                                      iii
                                       INTRODUCTION

BACKGROUND

Head Start Program

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social, and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services, the Administration for Children and Families (ACF) administers the Head Start
program.

The Head Start program provides grants to local public and private non-profit and for-profit
agencies to provide comprehensive child development services to economically disadvantaged
children and families, with special focus on helping preschoolers develop the early reading and
math skills needed to be successful in school. Head Start programs engage parents in their
children’s learning and emphasize parental involvement in the administration of local Head Start
programs.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to improve
staff compensation and training, upgrade Head Start centers and classrooms, increase hours of
operation, and enhance transportation services. An additional $356 million was allocated to
award all Head Start grantees a nearly five percent cost-of-living increase and bolster training
and technical assistance activities.

The City of Chicago

The City of Chicago (City) administers the Head Start program through the Chicago Department
of Children and Youth Services, which was renamed the Department of Family and Support
Services as of January 1, 2009. The City oversees Head Start operations by utilizing 64 delegate
agencies that are contracted to provide services throughout Chicago, Illinois. For fiscal year
(FY) 2009 (December 1, 2008, through November 30, 2009), the City reported 16,518 children
enrolled in the Head Start program.

The City Head Start program is funded primarily through the Federal grant. During FY 2009,
ACF awarded grant funds to the City totaling $114,756,192 for the Head Start and Early Head
Start programs. The City requested Recovery Act grant funding for FYs 2009 and 2010 totaling
$3,872,262 for Head Start program expansion and $12,138,168 for Head Start and Early Head
Start cost-of-living increases and quality improvement.

Requirements for Federal Grantees

Pursuant to 45 CFR § 92.20, governmental grantees are required to maintain financial
management systems that contain written procedures for determining the reasonableness,


                                                1
allocability, and allowability of costs. Grantees must maintain accounting records that are
supported by source documentation and must maintain financial systems that provide for
accurate and complete reporting of grant related financial data. Grantees are also required to
compare outlays with budget amounts for each award and may use grant funds only for
authorized purposes. In addition, pursuant to 45 CFR § 92.22, allowability of costs incurred by
local governments is determined in accordance with the provisions of Office of Management and
Budget (OMB) Circular A-87, “Cost Principles for State, Local, and Indian Tribal
Governments.” (2 CFR part 225).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our limited scope review was to assess whether the City has the capability to
manage and account for Federal funds in accordance with Federal regulations.

Scope

This review was performed based upon a limited scope request from ACF, dated June 19, 2009.
Therefore, we did not perform an overall assessment of the City’s internal control structure.
Rather, we reviewed only the internal controls that pertained directly to our objective. Our
review period was December 2005 through July 2009.

We performed our field work at the Chicago Department of Family and Support Services and the
Department of Finance, Comptroller’s Office, Special Accounting Division in Chicago, Illinois,
during July 2009.

Methodology

To accomplish our objective, we:

       consulted Federal sources to confirm that the City is not excluded from receiving Federal
        funds;

       reviewed applicable Federal laws and regulations pertaining to Federal grant awards and
        the Federal Head Start program;

       reviewed findings identified during the 2005, 2006, and 2007 OMB Circular A-133
        audits of the City’s Head Start grant;

       reviewed the City’s Comprehensive Annual Financial Reports for 2005, 2006, and 2007;

       reviewed the findings related to the ACF Triennial review of the City’s Head Start
        program, dated October 27, 2008;




                                                2
       reviewed the City’s policies and procedures related to its Head Start program;

       reviewed the City’s organizational chart;

       reviewed the salaries of the ten highest paid employees within the City’s Department of
        Family and Support Services; and

       performed additional audit steps to determine that the City had corrected prior audit
        findings identified by the A-133 audits and the ACF Triennial review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                             FINDING AND RECOMMENDATION

Generally, the City has the capability to manage and account for Federal funds in accordance
with Federal regulations. City administrative staff working on multiple activities, including the
Head Start program, had their salaries and wages supported by semi-annual certifications.
Although the City follows 2 CFR part 225, Appendix B, § 8.h.(3) and utilizes semi-annual
certifications, we would encourage the City to certify administrative staff’s time charged to
multiple funding sources on a monthly basis, in accordance with 2 CFR part 225,
Appendix B, § 8.h.(4) and (5).

FEDERAL CRITERIA

Regulations (2 CFR part 225, Appendix B, § 8.h.(4) and (5)) state that when employees work on
multiple activities or cost objectives, a distribution of their wages will be supported by personnel
activity reports that must reflect an after-the-fact distribution of the actual activity, be prepared at
least monthly, coincide with one or more pay periods, and be signed by the employee. Regulations
(2 CFR part 225, Appendix B, § 8.h.(3)) state that where employees are expected to work solely
on a single Federal award or cost objective, charges for their salaries and wages will be
supported by periodic certifications that the employees worked solely on that program for the
period covered by the certification. These certifications will be prepared at least semi-annually
and will be signed by the employee or supervisory official having first hand knowledge of the
work performed by the employee.

PERSONNEL ACTIVITY REPORTS

As part of our review to determine whether the City had sufficient support for salaries charged to
the grant, we reviewed the personnel activity reports for two Head Start employees working on
multiple grants. The two employees will earn $232,692 and charge 65 percent of their time to
the Head Start Program during FY 2009. We found that the two employees had their personnel



                                                   3
activity reports prepared semi-annually and signed by a supervisory official in compliance with
2 CFR part 225, Appendix B, § 8.h.(3).

RECOMMENDATION

In determining whether the City should be awarded additional Head Start and Recovery Act
grant funding, we recommend that ACF consider the information presented in this report in
assessing the City’s financial condition.

CITY OF CHICAGO COMMENTS

In written comments on our draft report, the City stated that a review and update of its policies
and procedures concerning personnel costs charged to Federal awards for administrative staff
was in order, but it did not agree with the finding that these costs were not in compliance with
Federal requirements. The City said that it follows a process that complies with 2 CFR part 225,
Appendix B, § 8.h.(3) and utilizes certifications every six months in instances where employees
“work solely on a single Federal award or cost objective.” Additionally, the City stated that it
does not agree with the assertion that OMB Circular A-87 requires all Department of Family and
Support Services administrative employees to prepare monthly personnel activity reports signed
by the employee. The City’s comments are included in their entirety as the Appendix.

OIG RESPONSE

After reviewing the City’s comments, we acknowledge that the City follows 2 CFR part 225,
Appendix B, § 8.h.(3) and utilizes certifications every six months when employees work solely
on a single cost objective. Although we would encourage the City to certify administrative
staff’s time on a monthly basis, in accordance with 2 CFR part 225, Appendix B, § 8.h.(4)
and (5), we have revised our report to acknowledge the City’s use of a six month certification
process.




                                                4
APPENDIX
                                         APPENDIX: AUDITEE COMMENTS                                    Page 1 of 2

                                                           September 23, 2009

                               Marc Gustafson
City of Chicago                Regional Inspector General
Richard M. Daley, Mayor
                                 for Audit Services
Chicago Department of Family   Department of Health and Human Services
and Support Services
                               Office of Audit Services
Mary Ellen Caron. Ph.D.        233 North Michigan Avenue
Commissioner
                               Chicago, Illinois 6060 I
Executive Office
2nd Floor
1615 West Chicago Avenue
Chicago, Illinois 60622            Re: Draft Report Number A-05-09-00088
(312)743-0300
(312)743-0400 (FAX)
(312)746-5455 (TrY)            Dear Mr. Gustafson:
www.cityofchicago.org
                                    This letter constitutes the response of the City of Chicago's Department of
                               Family and Support Services ("DFSS") to the above-referenced draft audit by
                               your office. As discussed below, while we agree that a review and update of
                               our policies and procedures concerning personnel costs charged to federal
                               awards for DFSS administrative staff is in order, we do not agree with the
                               finding of the draft report that DFSS "did not comply with Federal
                               requirements" related to such costs and, therefore, ask that the finding be
                               removed from the final report.

                                    With respect to administrative personnel, DFSS follows a process laid out
                               in the applicable cost principles (OMB Circular A-87) which allow state and
                               local government grantees to utilize after-the-facts certifications every six
                               months in instances where employees "work solely on a single Federal award
                               or cost objective." Such certifications must be "signed by the employee or
                               supervisory official having first hand knowledge of the work performed by the
                               employee." 2 C.F.R. part 225, app. B, ~ 8.h(3). Finally, the term "cost
                               objective" is defined by the Circular as:

                               a function, organizational subdivision, contract, grant, or other activity
                               for which cost data are needed and for which costs are incurred.

                               2 C.F.R. part 225, app. A, B.II. In other words, staff dedicated to a single
                               function such as administration can utilize the six-month certification process
                               provided that the certifications are made after the work was performed and
                               contain the proper signatures.

                                    DFSS follows this well-established process. In accordance with
                               procedures issued by the City's Department of Finance, administrative staff
                               who are solely dedicated to one function (administration) prepare certifications
                               on a semi-annual basis using the City's Form OMB-A87-1. These
                               certifications are signed by the employee's supervisor and contain two

 N~~~DS 

  ~

   \.1..   tiD'
                  "       ,
                          II
  • n '
  BUILDING CIIICAGO TOGETHER
                                                                      Page 2 of 2

percentages. One percentage (100%) shows that the employee is solely
dedicated to one cost objective. The other sets of percentages show how the
cost of the employee will be allocated to various programs (currently, Head
Start, Child Care and Workforce Investment) based on DFSS' s cost allocation
plan. That plan utilizes the actual number of direct employees in each function
on a monthly basis as the allocation base. For example, as the number of Head
Start employees rises and falls in proportion to the total number of direct
employees, the cost of administration charged to Head Start likewise rises and
falls. Utilizing these monthly staff counts, DFSS charges the cost of
administrative personnel to its grants also on a monthly basis. DFSS believes
that the number of employees in each program is a fair and equitable allocation
base and is fully in compliance with OMB requirements.

     With respect to the draft audit, DFSS does not agree with its assertion that
OMB Circular A-87 requires that all DFSS administrative employees must
prepare monthly personnel activity reports signed by the employee. We are
fIrmly of the belief that our system complies with the requirements of A-87
laid out in this letter. Accordingly, we would ask that your office remove the
fmding from the fInal report. In that regard, while we believe we provided
supporting documentation of our position during the audit, we would be happy
to provide additional copies at your convenience.

     Finally, we would like to thank your office for its hard work in reviewing
our time and effort system and, while we do not agree with the report's
conclusions, it has brought to our attention the need to update and clarifY
DFSS policies and procedures in this area. More particularly, we do agree that
DFSS needs to more clearly state the policy about when it is and is not
appropriate to utilize the six-month certifIcation process. We will, therefore,
be updating our policies appropriately. In addition, the City is in the process of
enhancing its existing payroll system (CHIPPS) across all Departments. This
enhancement will help to ensure that federal awards to the City will continue to
be charged appropriate amounts for staff time. It is our understanding that the
implementation of this enhancement should begin during the last quarter of
2010.

    Should your office need any additional information or would like to
discuss these issues further, please do not hesitate to contact me, or Managing
Deputy Kenneth McGhee at (312)743-1658.


                                           Sincerely,

                                           Mary Ellen Caron

                                           Mary Ellen Caron
                                           Commissioner
